                    July 28, 2000

                    A. KEITH STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIALS

                    SUBJECT:        Letter Advisory Report - Review of Influence
                                    of Postal Service Officials on Contractors'
                                    Employment of Consultants
                                    (Report Number CA-LA-00-002)

                    This letter advisory report presents the results of our review
                    of a hotline allegation and congressional inquiry concerning
                    allegations that United States Postal Service (Postal
                    Service) improperly influenced consultants to leave their
                    company and work for the Postal Services or other Postal
                    Service vendors (Project Number 00HR003CA000).

Results in Brief	   Our review revealed that Postal Service officials did not
                    improperly influence the consultants. We determined that
                    two of the complainant's former consultants were appointed
                    to career positions within the Postal Service. In addition,
                    two consultants provided services to the Postal Service
                    through other contractors. However, we found no evidence
                    to support the complainant’s allegations that the Postal
                    Service improperly influenced the movement of consultants
                    between contractors.

Background	         During February 2000, the Office of Inspector General (OIG)
                    received a hotline complaint from a former Postal Service
                    employee regarding the influence of Postal Service officials
                    on contractors' employment of consultants. The
                    complainant alleged that he provides consultants to perform
                    personal services for the Postal Service; however, lately his
                    consultants have been improperly influenced by Postal
                    Service officials to breach their employment contracts with
                    his company and work for other vendors in order to continue
                    working on Postal Service contracts.
Review of Influence of Postal Service Officials                                                  CA-LA-00-002
 on Contractors’ Employment of Consultants



                                 Subsequently, the complainant wrote to his congressman
                                 alleging that his company had lost personnel resources
                                 either through direct hire by the Postal Service or through
                                 the Postal Service directing his employees to work with
                                 other companies. The complainant asked his congressman
                                 to monitor our review of his complaint to ensure that the
                                 review was fair and impartial and that he was compensated
                                 for his losses. The congressman wrote to the Postal
                                 Service Legislative Affairs manager, requesting that he
                                 review allegations made by the complainant and report on
                                 the issues. The congressman's letter to the Legislative
                                 Affairs manager was referred to our office.

                                 In a March 11, 1999, memorandum, the postmaster general
                                 established a policy for obtaining consultant services. As
                                 part of the policy, the postmaster general took away officers’
                                 budget authority to hire consultants and the Consulting
                                 Services Review Committee was established to review all
                                 requests for new contracts or renewal of existing contracts.1
                                 In a March 19, 1999, memorandum, the co-chairs of the
                                 Consulting Services Review Committee provided initial
                                 guidance until permanent procedures were developed. The
                                 guidance defined consultant services and excluded certain
                                 services.2

                                 In a June 1, 1999, memorandum, the co-chairs of the
                                 Consulting Services Review Committee established
                                 procedures for processing requests for consulting services.
                                 The memorandum stated “Until approval authorities are
                                 restored to individuals, any new contract, task order, or any
                                 action requiring additional funding approval for covered
                                 services must be submitted to the committee using the
                                 procedures outlined below.” Procedures included
                                 completion of the Consulting Services Review Committee
                                 Form 13 and approval by the applicable officer and
                                 management committee member, and preparation of Postal
                                 Service Form 73814 and approval by the applicable officer.5

1
  Memorandum, March 11, 1999, William J. Henderson, postmaster general, chief executive officer, “Use of 

Consulting Services.”

2
  Memorandum, March 19, 1999, John H. Ward and A. Keith Strange, Co-chairs, Consulting Services Review

Committee, “Consulting Services Review Committee.”

3
  CSRC Form 1, Justification for New Contract or Task Order or Continuation of Current Contract.

4
  PS Form 7381, Requisition for Supplies, Service, or Equipment.
5
  Memorandum, June 1, 1999, John H. Ward and A. Keith Strange, Co-chairs, Consulting Services Review

Committee, “Consulting Services Review Committee.”





                                                       2
Review of Influence of Postal Service Officials                                     CA-LA-00-002
 on Contractors’ Employment of Consultants



Objective, Scope, and           The objective of the review was to determine whether the
Methodology                     allegations, that Postal Service officials improperly
                                influenced the employment of the complainant's former
                                consultants either through direct hire or by directing them to
                                breach their contracts and work for other companies, were
                                supported. We also wanted to determine whether the
                                contractor was entitled to compensation by the Postal
                                Service for losses. In addition, we wanted to determine
                                whether the Postal Service complied with the Consulting
                                Services Review Committee's policies and procedures in
                                obtaining the services of the complainant’s former
                                consultants through other contractors.

                                In accomplishing the objectives, we reviewed
                                correspondence and the contract between the Postal
                                Service and the complainant's company. We also reviewed
                                documentation supplied by the complainant,
                                correspondence between the complainant and the Postal
                                Service, documentation of Postal Service actions regarding
                                contracting activities, and compliance with policy set by the
                                Consulting Services Review Committee. Finally, we
                                compared contract identifiers on invoices to contract
                                identifiers on Postal Service requisition forms to determine
                                whether consultants were properly identified to contracts.

                                This review was conducted from May through July 2000 in
                                accordance with the President’s Council on Integrity and
                                Efficiency, Quality Standards for Inspections. We discussed
                                our conclusions and observations with appropriate
                                management officials and included their comments where
                                appropriate.

Employment of                   Our review revealed that Postal Service officials appointed two
Contractor's                    of the complainant's former consultants to career positions
Consultants                     within the Postal Service. We also determined that two of the
                                complainant's former consultants provided services to the
                                Postal Service through other contractors. However, we found
                                no evidence to support the complainant’s allegations that the
                                Postal Service improperly influenced the movement of
                                consultants between contractors.

                                The complainant provided evidence, which they believed
                                documented that a Postal Service official had influenced the
                                movement of a prospective consultant. This evidence



                                                  3
Review of Influence of Postal Service Officials                                     CA-LA-00-002
 on Contractors’ Employment of Consultants


                                indicated that a Postal Service employee discussed with a
                                prospective consultant possible work opportunities with Postal
                                Service contractors. However, the documentation did not
                                suggest that the Postal Service official acted improperly in
                                assisting the prospective consultant in obtaining suitable
                                employment. In addition, Postal Service officials' discussions
                                with the consultant took place when he was not working for the
                                complainant.

Compensation for                A review of the contract indicated that the Postal Service was
Losses                          not required to reimburse the complainant's company when its
                                former consultants accepted career positions with the Postal
                                Service. In a letter to the vice president, Purchasing and
                                Materials, the complainant requested that the Postal Service
                                reimburse his company for the loss of services of two former
                                consultants who were hired by the Postal Service as career
                                employees. The complainant felt that his company should
                                receive finder fee compensation from the Postal Service for
                                the loss of contract resources and commissions. Postal
                                Service officials denied the complainant’s request for a finder's
                                fee. The denial was based on the fact that the contract did not
                                provide for a finder's fee and contract language did not prohibit
                                the complainant’s consultants from accepting employment with
                                the Postal Service. Our review confirmed the provisions of the
                                contract.

Adherence to Policy             We found that of the complainant’s former consultants, two
                                provided services to the Postal Service through other
                                contractors. The two consultants worked under contracts that
                                required the approval process dictated by the Consulting
                                Services Review Committee. We found that Postal Service
                                officials complied with the committee's policies and procedures
                                in obtaining the services of two of the complainant’s former
                                consultants through other contractors.

                                Specifically, consultant A began working for a new contractor
                                on August 24, 1999. Initially, consultant A worked on contract
                                delivery order no. 102590-95-D-0806. Funding for this
                                delivery order was increased on December 2, 1998, before
                                consultant A began working for the new contractor and before
                                implementation of the Consulting Services Review Committee
                                procedures on June 1, 1999. This funding action also
                                extended the period of performance to December 31, 1999.




                                                  4
Review of Influence of Postal Service Officials                                    CA-LA-00-002
 on Contractors’ Employment of Consultants



                                On November 23, 1999, additional funding was requested for
                                the delivery order and extension of the period of performance
                                to March 31, 2000. These actions were processed in
                                accordance with Consulting Services Review Committee's
                                procedures, and the committee granted budget authority for
                                these changes on December 17, 1999. Effective
                                March 1, 2000, consultant A was reassigned to another
                                delivery order no. 102590-96-D-1819. We concluded that the
                                steps undertaken to effect approval of this delivery order were
                                also in compliance with the committee's procedures. The
                                committee granted budget authority for this delivery order on
                                February 28, 2000.

                                Consultant B began working for a new contractor on
                                February 1, 2000, under contract no. 483083-93-B-2134. The
                                third option under this contract provided funding and a period
                                of performance from September 1, 1999, to August 31, 2001.
                                The procedures undertaken to effect approval for this action
                                were in compliance with Consulting Services Review
                                Committee procedures. The committee granted budget
                                authority for this option on June 25, 1999.

                                We appreciated the cooperation and courtesies provided by
                                your staff during the review. If you have any questions, please
                                contact Kim H. Stroud, director, Contracts, or me at (703) 248-
                                2300.



                                Sylvia L. Owens
                                Assistant Inspector General
                                 for Business Protection

                                cc: John R. Gunnels




                                                  5
Review of Influence of Postal Service Officials       CA-LA-00-002
 on Contractors’ Employment of Consultants




 Major Contributors to
 This Report




                                                  6
